                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 108090050                                                                   Page 1 of 1



         This investigation was opened pursuant to findings from otl.ter OIG Investigations 1 that NSF
         employees had circulated and shared sexually explicit material with one another, with other NSF
         employees and contractors, and with unknown individuals outside NSF via email exchanges.using
         NSF IT resources in clear violation ofNSF policy. NSF employees2 were identified as having sent
         and/or received emails with inappropriate material. A memorandum containing our findings was
         sent to the Agency for review arid action. The Agency then issued personnel actions3 against the
         employees for violation ofNSF policy on Personal Use ofNSF's Technology and Communication
         Resources.

         Accordingly, this matter is closed.




NSF DIG Fonn 2 (11102)
